<html>
<title> - THE FEDERAL SAFE ROUTES TO SCHOOL PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
               THE FEDERAL SAFE ROUTES TO SCHOOL PROGRAM 

=======================================================================

                                (110-75)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 2, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                     U.S. GOVERNMENT PRINTING OFFICE

38-250 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001






























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California

                                  (ii)



            SUBCOMMITTEE ON HIGHWAYS, TRANSIT AND PIPELINES

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
ELLEN O. TAUSCHER, California        THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
MICHAEL E. CAPUANO, Massachusetts    RICHARD H. BAKER, Louisiana
JULIA CARSON, Indiana                GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          ROBIN HAYES, North Carolina
MICHAEL H. MICHAUD, Maine            HENRY E. BROWN, Jr., South 
BRIAN HIGGINS, New York              Carolina
GRACE F. NAPOLITANO, California      TIMOTHY V. JOHNSON, Illinois
MAZIE K. HIRONO, Hawaii              TODD RUSSELL PLATTS, Pennsylvania
JASON ALTMIRE, Pennsylvania          JOHN BOOZMAN, Arkansas
TIMOTHY J. WALZ, Minnesota           SHELLEY MOORE CAPITO, West 
HEATH SHULER, North Carolina         Virginia
MICHAEL A ARCURI, New York           JIM GERLACH, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  MARIO DIAZ-BALART, Florida
JERRY MCNERNEY, California           CHARLES W. DENT, Pennsylvania
BOB FILNER, California               TED POE, Texas
ELIJAH E. CUMMINGS, Maryland         DAVID G. REICHERT, Washington
BRIAN BAIRD, Washington              CHARLES W. BOUSTANY, Jr., 
DANIEL LIPINSKI, Illinois            Louisiana
DORIS O. MATSUI, California          JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               CANDICE S. MILLER, Michigan
ZACHARY T. SPACE, Ohio               THELMA D. DRAKE, Virginia
BRUCE L. BRALEY, Iowa, Vice Chair    MARY FALLIN, Oklahoma
HARRY E. MITCHELL, Arizona           VERN BUCHANAN, Florida
LAURA A. RICHARDSON, California      JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)



























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Bricker, Scott, Interim Executive Director, Bicycle 
  Transportation Alliance, Portland, Oregon......................     5
Hubsmith, Deb, Director, Safe Routes to School National 
  Partnership, Fairfax, California...............................     5
Koch, Lisa, Coordinator, Kansas Safe Routes to School, Topeka, 
  Kansas.........................................................     5
Marchetti, Lauren, Director, National Center for Safe Routes to 
  School, Chapel Hill, North Carolina............................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Mitchell, Hon. Harry E., of Arizona..............................    36
Napolitano, Hon. Grace F., of California.........................    38
Oberstar, Hon. James L., of Minnesota............................    39

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bricker, Scott...................................................    43
Hubsmith, Deborah A..............................................    52
Koch, Lisa.......................................................    69
Marchetti, Lauren................................................    93

                       SUBMISSIONS FOR THE RECORD

Bricker, Scott, Interim Executive Director, Bicycle 
  Transportation Alliance, Portland, Oregon, responses to 
  questions from Rep. Napolitano.................................    48
Hubsmith, Deb, Director, Safe Routes to School National 
  Partnership, Fairfax, California, responses to questions from 
  Rep. Napolitano................................................    64
Marchetti, Lauren, Director, National Center for Safe Routes to 
  School, Chapel Hill, North Carolina:

  Response to request from Rep. Coble............................   111
  Responses to questions from Rep. Napolitano....................   112

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



          HEARING ON THE FEDERAL SAFE ROUTES TO SCHOOL PROGRAM

                              ----------                              


                        Tuesday, October 2, 2007

                   House of Representatives
    Committee on Transportation and Infrastructure,
                      Subcommittee on Highways and Transit,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Peter 
A. DeFazio [chairman of the Subcommittee] presiding.
    Mr. DeFazio. The Subcommittee will come to order as soon as 
I turn on my microphone.
    Today, the subject matter is a hearing on the Federal Safe 
Routes to School program. Coming down the hall, I thought we 
had created a massive amount of interest when I saw the police 
and crowd, but I find that was a scandal instead of something 
that is substantial in contributing to the future of our 
Country.
    This program, which the Chairman of the Committee took a 
particular hand in creating, in my opinion, and I believe 
probably others share this sentiment, can address a number of 
problems simultaneously in the United States. We have a 
childhood obesity problem. If we can change the habits of 
children and make them less sedentary, that will lead to a 
life-long improvement in health. It is solving problems for 
children who are today, already, riding their bikes or walking 
to school, who are not the new entrants in the program, but who 
are doing it in areas that are not safe.
    In my hometown of Eugene we have had one fatality of a 
small young boy who was riding his bike and crossing a four-
lane road, and the car closest to him stopped, and as he was 
obscured riding past that, a young driver who was speeding past 
that car in the outer lane killed the child. We had another 
incident of a child in the crosswalk who was seriously injured.
    And I know this is repeated around the Country. There are 
obviously improvements we can make in the routes that our 
children might use to go to school, in addition to getting more 
children to choose to walk or ride bikes to school.
    So I think this sort of interim hearing on what progress we 
are making, what problems there might be with the program will 
help direct its future.
    With that, I would turn to the Ranking Member, Mr. Duncan, 
for his comments.
    Mr. Duncan. Thank you, Mr. Chairman. I want to thank all of 
the witnesses that have come here to testify this morning and 
thank you for calling this hearing.
    The topic of today's hearing is the Safe Routes to School 
program that was created in SAFETEA-LU. This program was 
intended to pay for infrastructure improvements around 
elementary and middle schools to make it safer and easier for 
students to walk or bike to school. Funding from this program 
can also be used to pay for non-infrastructure activities that 
encourage walking and biking to school.
    Where it makes sense, I think it is great if children are 
able to walk or bike to school. I think the goals and 
objectives of this program are very admirable, and I think we 
can all agree that childhood obesity is a major problem in our 
society and that any program that enables children to be more 
active is a good program.
    Some people have raised concerns about whether these 
activities should be funded through the Federal Highway program 
and the Highway Trust Fund because, before the end of 2009, the 
account of the Highway Trust Fund will run out of money. In 
fiscal year 2009, the Safe Routes to School program will 
receive $183 million. In that same year, we allocate only $90 
million for highway improvements on high-risk rural roads, and 
we set aside only $100 million for emergency highway repairs to 
respond to natural disasters and disasters like the collapse of 
the I-35 bridge in Minnesota.
    I think the Safe Routes to School program is a wonderful 
and worthwhile program, but we need to make sure that we don't 
shortchange other programs that would perhaps save even more 
lives.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you. With that, I would see if other 
Members have opening statements.
    Ms. Matsui?
    Ms. Matsui. Thank you, Mr. Chairman, for calling this 
important hearing. I just want to first start out by saying 
that Safe Routes to School is a wonderful and a worthwhile new 
program that Congress authorized in SAFETEA-LU.
    In my district, in Sacramento, we are having great success 
with this program. For example, one of our school districts has 
created a program--and I think this has happened in other 
States too--called Walking Wednesdays. It encourages the kids 
and the parents to walk or bike to school together. It 
encourages more family time, which I guess all of us know there 
is not enough of, but also promotes a better appreciation for 
the healthiness of walking and encourages alternate modes of 
transportation. These are all lessons that can be used later in 
life and can help build healthier communities.
    I am looking forward to working on these issues with you, 
Mr. Chairman. I am also looking forward to hearing from today's 
witnesses. I thank you and I yield back.
    Mr. DeFazio. Thank you.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. I will be very brief.
    I want to welcome the panelists, especially my fellow North 
Carolinian, Ms. Marchetti, and I want to associate with the 
remarks, Mr. Chairman, of the gentleman from Tennessee. I 
believe the goals are indeed admirable, and I too look forward 
to hearing the testimony today, and I yield back.
    Mr. DeFazio. Thank you. With that, I would turn to the 
Chairman of the Full Committee, Mr. Oberstar, the father of the 
Safe Routes to School program. Or grandfather or whatever you 
would like to be.
    Mr. Oberstar. Thank you, Mr. Chairman. I will take full 
credit, responsibility, obligation, but that has to be shared 
with so many dozens of others who were there at the creation of 
this initiative.
    I thank you for allowing us to hold this hearing. And the 
gentleman from Tennessee, who is ever so diligent in supporting 
the activities of the Committee and for his ever-thoughtful 
comments, thank you so very much.
    Ms. Matsui, in whose city there is a very strong, very 
effective Safe Routes to School program, on its way to being an 
award-winning project with use of all of the initiatives, the 
education, the traffic calming, the actual walking and cycling 
to school, engaging parents, faculty, administration, and the 
city engineering office as well. The program also works well 
when the mayor of the community, Mayor Heather Fargo, in this 
case, is strongly supportive. My hat is off to Sacramento and 
to Portland and to so many other cities across the Country.
    The real purpose of this hearing is to fulfill what I said 
at the outset of the creation of the Safe Routes to School 
initiative, is that it has to be accountable; that we have to 
take measure of the program in its initial stages, halfway 
through, and then at the end of the authorization period, when, 
on the eve of 2009, we will be writing a new transportation 
bill under the leadership of the gentleman from Oregon.
    I said this is a new initiative. It is one that has great 
hope, great promise for the future, and for that reason we have 
to hold it accountable and we have to review its progress, make 
sure that it is achieving the goals set out and, if not, to 
adjust that program.
    Well, I am quite satisfied that not only are the goals of 
Safe Routes to School being achieved, but exceeded. For that, 
at the outset, I want to thank Tim Arnade, who is at the 
Federal Highway Administration, the national director of the 
Safe Routes to School program for the U.S. Department of 
Transportation. Mr. Arnade put himself, Mr. Chairman, heart and 
soul, full energy into the development of the guidelines, 
working with State coordinators for Safe Routes to School 
across the Country as they were designated by each State; 
developed a comprehensive plan, a model for each of the States 
to follow; and then, when all the coordinators were designated, 
he gathered them, had a conference, got the best ideas, best 
practices, and moved this initiative forward.
    We didn't ask him to testify; that should come at a later 
date in the program. We should hear from those who are on the 
firing line.
    I also, at this point, want to thank our Safe Routes 
coordinator in Minnesota, Kristie Billiar. She is the best 
thing the Minnesota Department of Transportation has done over 
the last three years. Everything else has gone to hell in a 
hand basket over there; the bridge collapsed, they can't get 
their act together, can't pass an increase in the gas tax. But 
they can do Safe Routes to School, and they have done it 
exceedingly well.
    When I crafted this idea, it was following a presentation 
by the Centers for Disease Control in March of 2000 on results 
of a five year longitudinal study of obesity in America's 
children. This study reported that, 40 years ago, 60 percent of 
all children walked and biked to school; in 2000, less than 2 
percent; that, further, 25 percent of children were clinically 
obese, that is, more than 30 percent above their ideal body 
weight; that 60 percent of children 15 and under were 
clinically seriously overweight or verging on obesity; that 65 
percent of adult Americans were clinically overweight or obese; 
that 75 percent of trips by children 15 and under were by 
vehicle, motor vehicle, to school, from school; that twice a 
day air quality is severely deteriorated at school areas 
because idling of buses and cars and SUVs and the rest.
    There were many other disturbing data, but the worst of all 
was that Type II diabetes had doubled in five years among 
children 15 and under. No period in health statistics had seen 
such a dramatic increase in disease, a preventable disease, 
largely.
    So I gathered a group of enthusiasts for cycling. Actually, 
I went out and did a ride on my bike that afternoon. It was a 
short session that day and I went out and I meditated on the 
issue, called a group of cycling/pedestrian advocates together 
in my office and I read those statistics to them and I said I 
have a plan to fix it, I am going to call it Safe Routes to 
School. Someone raised their hand and said it is a great idea, 
it has already been done in England. I said, well, it is still 
a pretty good idea, even though the Brits already did it.
    They cited to me the study which had been completed three 
years--more than a study, an experiment--three years 
sustainable transportation, and in those three years the Brits 
had really changed habits of young people; created Walking 
School Buses. They did infrastructure changes at intersections: 
widened the crossings, brighter striping; as I said, Walking 
School Buses for children, wearing the same clothing or hats. 
They engaged parents and school administrators, and in the 
third year of the program more bicycles were sold in the U.K. 
than automobiles. Well, I am not out to sell more bikes than 
automobiles with this program, but, in fact, that is what is 
happening. Last year, more bicycles were sold in the United 
States than automobiles.
    So we took that idea, we had--to shorten the story--engaged 
the National Highway Traffic Safety Administration to commit to 
two grants of $50,000 each, one to support a principally 
walking program in Arlington, Massachusetts, and the other 
principally a bicycling program in Marin County, California. 
Thanks to the energy, enthusiasm, and creativity of Deb 
Hubsmith, that Marin County program was a resounding success, 
and the same in Arlington, Massachusetts, where they revived 
school crossing guards that had long been dormant in that city; 
and in both places lessons learned, lessons applied resulted in 
the draft legislation and finally inclusion in SAFETEA-LU, and 
here we are with an enormously successful initiative.
    You have many opportunities in the legislative arena to do 
good of one kind or another. Many of us get an amendment passed 
and occasionally we get a bill passed. But rarely do you have 
an opportunity like this, to change the habits of an entire 
generation, and that is what we can do with Safe Routes to 
School. We can save an entire generation, and those to follow 
them, from childhood diabetes, from obesity, into safer 
walking, bicycling habits; change the safety parameters in the 
school arena. And we are seeing the benefits, seeing the 
results, and seeing the success of those initiatives with the 
program on which we will hear a full report today.
    Over 700 schools in just the first two years of the program 
have initiated programs and had reports and success. Safe 
Routes to School is now in all 50 States and the District of 
Columbia. Law enforcement, families, children, school boards, 
city governments, all are engaged. We have a Safe Routes to 
School clearinghouse with Lauren Marchetti at the University of 
North Carolina School of Public Health, and serving as a center 
for sharing information, best practices, and making sure that 
information gets out quickly, Safe Routes Task Force, headed by 
Deb Hubsmith. All are working together, sharing their 
experiences, and the best result of all is that we are seeing 
success in reducing Type II diabetes, high cholesterol and 
blood pressure among school children.
    I look forward to the testimony, which I have read already, 
frankly; I stayed up until the early hours of the morning 
making sure I read every page of it, and I am very excited 
about the report we will receive this morning.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Are there other Members who wish to make an opening 
statement?
    [No response.]
    Mr. DeFazio. Seeing none, we will then proceed to the 
witnesses and we will begin with Ms. Marchetti.

 TESTIMONY OF LAUREN MARCHETTI, DIRECTOR, NATIONAL CENTER FOR 
    SAFE ROUTES TO SCHOOL, CHAPEL HILL, NORTH CAROLINA; DEB 
HUBSMITH, DIRECTOR, SAFE ROUTES TO SCHOOL NATIONAL PARTNERSHIP, 
FAIRFAX, CALIFORNIA; SCOTT BRICKER, INTERIM EXECUTIVE DIRECTOR, 
  BICYCLE TRANSPORTATION ALLIANCE, PORTLAND, OREGON; AND LISA 
KOCH, COORDINATOR, KANSAS SAFE ROUTES TO SCHOOL, TOPEKA, KANSAS

    Ms. Marchetti. Thank you.
    Mr. Chairman and distinguished Members of the Subcommittee, 
thank you for inviting me to testify. It is an honor and 
privilege to be here before you to discuss this wonderful 
program. I also want to thank Congressman Coble for his kind 
statement of support. But I particularly want to thank the 
Committee and Chairman Oberstar, and his staff in particular, 
for their tremendous leadership in making this a reality.
    The Safe Routes to School concept has been described as 
small steps, perhaps, but millions of them and all in the right 
direction. It is a simple and powerful concept. Where it is 
safe, encourage children to enjoy the walk to school as 
generations before them did. Where it is not safe, bring 
together the community partners and resources to make it safe. 
Unfortunately, in some places, children are walking and biking 
to school in unsafe conditions. Often, this is in urban, low 
resource areas. These children deserve better.
    Housed within the University of North Carolina Highway 
Safety Research Center, the National Center works with the 
Federal Government, all 50 States, the District of Columbia, 
and local programs throughout the Country to help implement the 
Safe Routes to School program. We are pleased that our partners 
include the American Association of State Transportation 
Officials, America Walks, the Governors Highway Safety 
Association, the Institute of Transportation Engineers, and 
Toole Design.
    The clearinghouse serves three main functions. Build 
capacity. This is done largely with training and technical 
support. Promote demand. I will talk to you later about the 
wonderful things that Walk to School Day is accomplishing. And, 
finally, understand what works. This is very important to us. 
Successful programs and strategies must be identified and 
shared so all schools can benefit.
    As Chairman Oberstar was saying, we are on the convergence 
of major issues that Safe Routes to School programs can 
address. The obesity epidemic and related illnesses that we are 
experiencing have reached our children, leading public health 
professionals to warn that this generation of children may be 
the first not to live to be as old as their parents. Now, that 
stuns a lot of people when they hear that.
    Concerns about traffic congestion, the environment, and our 
dependency on foreign fuel have spurred many to look for 
alternatives. Walking is the form of transportation and 
physical activity that is the easiest to do and most affordable 
for all. As more and more adults and children seek this 
ability, we must be proactive in our efforts to make these 
modes safe and accessible.
    With over 30 years experience in the transportation safety 
field, I have seen a lot of programs. Yet, I am amazed at how 
quickly so many States have embraced Safe Routes to School, and 
at the commitment and enthusiasm of the State coordinators. You 
will hear that spirit when Lisa Koch testifies shortly.
    I would like to make five points. One, the Federal program 
is going strong. They had three requirements: to establish the 
Safe Routes to School program, establish a clearinghouse, and 
create a national task force. I am here to inform you that FHWA 
has moved aggressively to accomplish all three. As Chairman 
Oberstar mentioned, they appointed a senior level employee, Tim 
Arnade, to serve as the contact person within six weeks of 
passage of SAFETEA-LU. This was crucial to the speed with which 
the program advanced. Within two months, the first two years of 
funding were issued to the States. By the time the program was 
one year old, 13 States had announced funding.
    The clearinghouse was established in May 2006, and we too 
understood speed was important. Within three months we had a 
comprehensive web site, we had convened a meeting of the State 
coordinators, we started providing free training to each State, 
and we had established a tracking program.
    The national task force was established in October 2006 
and, as a member of that organization, I can testify that we 
have already met three times, about to have our fourth meeting, 
and we are working hard to get our report out.
    My second point is that States are engaged and running with 
the program. Two key provisions made that happen: the 
requirement for full-time coordinators and the flexibility in 
allowing States to use a variety of approaches. Funds are also 
reaching the communities and we are seeing early successes. As 
of July, 40 States had completed or were actively involved in 
soliciting local Safe Routes to School program applications.
    Data is also being collected. We have set up a tracking 
system. We are going to be looking at programs, and the 
resulting database will support national level and overall 
program evaluation. We will be able to see what is working and 
share that information quickly.
    I would like to end my testimony with a success that gives 
me particular joy. Tomorrow, October 3rd, is International Walk 
to School Day. I am very proud to say that that started in the 
United States in 1997. The Brits joined us later. This year, it 
will be celebrated in 42 countries. The importance to me about 
this is that it is an event that has caught on in all 50 
States, with over 3,000 schools registered this year. And it 
isn't just an event. When they do the walk to school activity, 
they go on to start programs and get engaged and remember how 
much they used to enjoy walking to school, at least the adults 
when they were young.
    In conclusion, I want to say that the Safe Routes to School 
program is off to a great start because of parents and schools 
that want better for their children, advocates who are 
dedicating their time to where their hearts are--and you will 
hear that in Deb Hubsmith's testimony, I am sure--and the State 
coordinators, like Lisa Koch, for whom this is not just a job, 
but a way to improve the lives of school children.
    I would like to thank the Chairman, Ranking Member, and 
Members of the Subcommittee for this opportunity to tell you 
the wonderful things I am seeing out there.
    I want to leave you with one statement from a coordinator 
in a State that is dealing with some rough economic times. In 
an application for an award that we are going to be giving out 
soon, he said, often, because neighborhood schools are the 
single remaining institution in blighted areas around which a 
community can rally, Safe Routes to School is the catalyst that 
engages neighborhoods again and empowers them, through success, 
to stem decline and recreate community.
    Thank you.
    Mr. DeFazio. Thank you.
    Ms. Hubsmith.
    Ms. Hubsmith. Yes, good morning, Chairman Oberstar, 
Chairman DeFazio, and Ranking Member Duncan, and Members of the 
Committee. I am pleased to be here today to have the 
opportunity to speak with you about the success of the Federal 
Safe Routes to School program.
    Overall, my assessment is that the program is doing 
extremely well and is very popular. Still, there are some 
things that Congress can do to improve its success, and I will 
highlight those opportunities throughout my testimony.
    I have been involved with Safe Routes to School programs 
for nearly 10 years. In 1999, California passed the first 
legislation to allow for a Safe Routes to School program, and 
then, in the year 2000, as Chairman Oberstar mentioned, I had 
the opportunity to help to manage a pilot program for the 
National Highway Traffic Safeway Administration in Marin 
County, California. We were asked by the Federal Government to 
incorporate the five E's as part of our Safe Routes to School 
program, recognizing that if you build it, they don't always 
come. So in order to create a program, in order to change 
people's behavior, you need to use a variety of techniques.
    So our program used the 5 Es, starting off with Evaluation, 
asking parents why they are driving their children to school 
now and what it would take to change their behavior, and taking 
initial baseline information; Engineering, taking a look at the 
routes to schools and what could be changed, and then creating 
priority lists and seeing what the city can do on their own 
funding and what type of applications are needed from State or 
Federal governments; Education, taking a look at traffic safety 
and how we can improve that in the schools and on the streets; 
Encouragement, activities like Walk to School Day; and then 
Enforcement, working together with law enforcement.
    So Safe Routes to School became a comprehensive program 
that really brought the city and the school together and 
directed the resources of these entities to make a difference. 
It worked so well that when the Congress passed the Safe Routes 
to School legislation, the Federal Highway Administration 
created guidance recommending the 5 E's for Safe Routes to 
School, and that has been a tenet for its success.
    I went on to form the Safe Routes to School National 
Partnership that is a network of more than 300 organizations 
now, including the Institute for Transportation Engineers, the 
American Association of School Administrators, Rails to Trails 
Conservancy, and the League of American Bicyclists. We are 
working to grow the Safe Routes to School movement, set best 
practices, and to share information. We released this report 
yesterday, Safe Routes to School: The State of the States, and 
there are copies here that will be available for you to pick up 
later if you are interested.
    I would like to cover four points as to how Safe Routes to 
School is succeeding. Number one, it is being proven that the 
program is increasing walking and bicycling to school. In 
California, where we have had a program now for six years. The 
Department of Transportation released a study this January that 
showed that at schools that received improvements, we increased 
the number of children walking and bicycling in the range of 20 
percent to 200 percent.
    Secondly, Safe Routes to School builds important 
partnerships, both at the State level and also at the local 
level. It brings together partnerships like the Health 
Department, law enforcement, and the Departments of 
Transportation and Education, partners that may not have always 
worked together before.
    Our friends in Knoxville, Tennessee report that the 
Regional Transportation Planning Organization is particularly 
proud of the fact that they have worked with the Bearden 
Elementary School and the Beaumont Elementary School to run 
active Safe Routes to School programs, and they are now 
applying for Federal funds to expand to three more schools. And 
they are particularly proud of the fact of how they brought 
together these diverse partners.
    Thirdly, Safe Routes to School is reaching low income 
communities. By providing the 100 percent funding for the 
program, it allows for communities that may not have the 
resources to apply for grants to do so, and the Active Living 
Resource Center, funded by the Robert Wood Johnson Foundation, 
is making an effort to work with DOTs to have that happen. It 
is being successful.
    In addition, another success is that Safe Routes to School 
is leveraging additional funds. Foundations like the Robert 
Wood Johnson Foundation, Bikes Belong Coalition, and the 
Harvest Foundation have invested money to help make this 
program succeed. In addition, thousands of parents give their 
time, through Walking School Buses and other activities, in 
order to make the program work. This adds value to the Federal 
program.
    There are three opportunities and challenges that I would 
like to address where Congress can help. First, there is a 
latent demand for the funding for this program. In most States, 
we have seen way more requests than funding is available. In 
fact, many times it is five times the amount of funding that is 
available. In New Jersey, $74 million was requested for only 
$4.15 million that was available.
    Secondly, the Federal requirements for Safe Routes to 
School reflect Title 23, and while it is extremely important to 
have rigorous oversight for the expenditure of Federal funds, 
many of these programs are very small in nature, and the 
administrative fees and time it takes to implement them are 
quite intense. It would be great if we could work together with 
Congress to streamline these activities, because many of the 
changes are taking place in an existing built environment and 
result in educational programs.
    Thirdly, we would like to work with you on improved data 
collection. We are very pleased that the National Center for 
Safe Routes to School has developed parent-student collection 
surveys, and these are good, but we would like to work with you 
to improve the census questions, to have questions related to 
school travel, and to fund the National Household Travel 
Survey. In addition, as the State DOTs report information to 
FHWA, we would like to have more information reported on 
bicycle and pedestrian data and Safe Routes to School.
    Finally, I would be remiss if I did not address recent 
criticisms that have been directed at the use of Federal 
dollars for Safe Routes to School and other bicycle and 
pedestrian programs. Please let me point out that the funding 
for this program represents only 0.2 percent of the overall 
funding in the Federal transportation bill. Our children are 
worth 0.2 percent of the Federal transportation funds.
    Secondly, many communities report that 20 percent to 30 
percent of the morning traffic is parents driving their kids to 
school. This is helping to relieve that traffic congestion. In 
addition, municipal costs are rising for school bus 
transportation, so many States are cutting this. We need to 
provide a way for these kids that are now on the streets to get 
to school safely.
    As was mentioned by the Chairman, U.S. activity among 
children has plummeted, and now one third of our U.S. children 
are overweight and obese. That is 25 million children. And 
there are huge costs for the United States for this. In 
addition, walking and biking to school reduce greenhouse gas 
emissions and it reduces energy, and these are priorities for 
our Nation.
    Safe Routes to School is creating a stronger America, a 
healthier America, and I would like to thank Congress for 
making the opportunity available for every family and every 
child to make a difference in their health and the health of 
this Nation. Safe Routes to School is a program the United 
States can be proud of. Thank you very much. I look forward to 
working with you to strengthen the program and to answering 
your questions.
    Mr. DeFazio. Thank you.
    Mr. Bricker.
    Mr. Bricker. Thank you, Chair DeFazio, Chair Oberstar, 
Ranking Member Duncan, and Members of the Committee. My name is 
Scott Bricker and I am with the Bicycle Transportation Alliance 
from Oregon. I am very pleased to be here, very excited to be 
up here testifying. I am hoping to provide just a small, brief 
snapshot of what is going on in Oregon, successes and 
challenges that one State is facing.
    In 1996, I started working on youth mobility issues as part 
of my master's degree at Portland State University in 
transportation planning. For two years I rode bicycles with 
children to school, after school, and worked with them on what 
types of transportation needs they needed and had.
    In 1998, I worked with the Bicycle Transportation Alliance 
to write a grant to ODOT, the Transportation Safety Division, 
to get money, actually FHWA money, to start a bicycle safety 
education program. In the last eight years, that program has 
taught over 40,000 children a 10 hour traffic safety course 
riding bicycles on the street.
    In Oregon, we have worked to be part of the National Safe 
Routes to School partnership and I have been on the board of 
that organization with Deb. We passed Oregon Safe Routes to 
School laws in 2001, 2005, and 2007, and in Oregon, recently, 
we created a Safe Routes to School advisory committee, as well, 
to help write rules in the Oregon law, but also mostly because 
of the Federal program.
    In Oregon, communities up and down the State have been 
working on and grappling with issues about bicycling, walking 
to school, and the children. In Eugene and Springfield, the 
Lane Transit District has been working to try and increase 
safety of children and get bus passes into kids' hands, trying 
to increase walking and biking to school.
    In Albany, one community volunteer, Jim Lawrence, has been 
working with the community to grapple people to work with this 
issue of congestion in front of his schools, and in Corvallis, 
the Benton County Health Coalition has been working to try and 
do the same.
    In Bend, the Public Works Department created Oregon's first 
Safe Routes to School plan in Bear Creek Elementary School, 
working with the principal and a couple parents, and in Ashland 
and Medford the communities have been working with their 
traffic safety committees in the community to try and handle 
this issue.
    Finally, in Portland, we have been working for the last 
four years to try and increase Safe Routes to Schools.
    In all of these programs the community has been really the 
group that has been leading this effort. In fact, in none of 
these communities has the school been the place that has been 
leading this effort. At the same time, Oregon spends $300 
million a year on school bus transportation. Today, Oregon 
receives about $1 million a year from the Safe Routes to School 
program. And, in Oregon, only 30 percent of the kids actually 
take the bus.
    What is the problem here? The Federal Safe Routes to School 
program has given the impetus, with only $1 million a year, to 
help form these coalitions, to help actually bring these people 
together to create school travel plans, to create strategies, 
and to apply to receive Federal Safe Routes to School funds. In 
fact, in Oregon, in 2005, we passed a law stating that to get 
Safe Routes to School funds you would have to have a school 
transportation plan or some kind of strategy; not a very 
formalized plan, but a strategy, a discussion between the city 
and the schools or the county and the schools.
    The Federal program has been successful in Oregon because 
it has helped leverage real partnerships; it has helped bring 
me out here, and this is my first time testifying in front of 
Congress, and I really am excited and slightly nervous to be up 
here, but you have the potential to have more and more people 
who have never been here before because of this program. 
Yesterday we had a press conference with children who came with 
bikes and were walking, had a chance to have a civics lessons. 
Kids who, in the past, were not empowered to bicycle and walk 
to school today are being so.
    I believe that, for Oregon, the Federal Safe Routes to 
School program has had some very specific positive impacts. 
One, it has been the impetus to help us create our Safe Routes 
to School Advisory Committee, which really is a coalition and 
has, for the first time, Department of Education, School 
transportation people in the same room with ODOT, with the 
transportation department. Two, as I had mentioned, it is 
creating partnerships between health departments, between 
cities, between schools, between advocates like myself, 
parents, safety advocates, a wide range of people that have 
never worked before together in this way. And, three, it has 
real money. Even at $1 million a year, we can build crosswalks, 
we can build curb extensions, we can build meeting islands, and 
we can also provide safety education to children in Oregon. We 
can promote bicycling and walking to school and active, healthy 
lifestyles, and those things are happening.
    There are some problems or some concerns that we have, 
stumbling blocks about the programs. Our stumbling block is the 
construction requirements that are required by FHWA. With $1 
million a year, and perhaps only $700,000 a year, we are 
encouraging communities in Oregon to only submit small 
applications, between $35,000 and $250,000 per school. Two 
hundred fifty thousand is one traffic signal. To have to go 
through the Federal hoops, right now, we haven't even figured 
out in Oregon. We are encouraging bundling of projects; we are 
encouraging a streamlining process and seeing if there is any 
way we can streamline the evaluation project. If you are going 
to build a $2,000 speed bump, you shouldn't have to have a 
$10,000 administrative fee.
    At the same time, the promotion and education programs have 
already been funded, and those programs are moving forward.
    The other thing that we are stumbling with is the issue of 
supplanting ongoing costs. We would like to be able to fund 
ongoing bicycle safety education, but we are not exactly sure 
if this program will let us do it for more than one or two 
years, and that is something that we are working on.
    In summary, in Oregon, the demand greatly outpaces the cost 
of available revenue and ODOT is doing an excellent, in the 
Transportation Safety Division, managing this program. At the 
same time, planning does take time. With only two years after 
the Federal program has really been released, communities are 
still trying to put their plans together. So we are excited to 
move this forward and have more and more schools submit 
programs and plans to you all.
    So I encourage you and I look forward to working with you 
all to increase this funding in the future to keep this program 
going and to let us continue this great work. Thank you.
    Mr. DeFazio. Thank you, Mr. Bricker.
    Ms. Koch.
    Ms. Koch. Good morning, Mr. Chairman, Ranking Member 
Duncan, and Members of the Committee. My name is Lisa Koch, and 
I am the Coordinator of the Kansas Safe Routes to School 
program at the Kansas Department of Transportation in Topeka. 
In addition to my oral testimony today, please accept my 
written testimony, which I have submitted for the record.
    Thank you for holding this timely hearing on the status of 
the Federal Safe Routes to School program, which was funded 
through the passage of SAFETEA-LU in 2005. Since the passage of 
SAFETEA-LU, the 50 State Departments of Transportation and the 
Department of Transportation for the District of Columbia have 
been working to create Safe Routes to School programs that meet 
the needs of their varied constituents. My comments today will 
focus on the Safe Routes to School program that has been 
created at KDOT as an example of how the Federal guidance for 
the Safe Routes to School program has been interpreted at the 
State level.
    KDOT started their Safe Routes to School program in early 
2006, just months after receiving guidance from FHWA. The 
leadership at KDOT supported this program from the beginning 
and, knowing that there wouldn't be much time to prove its 
viability during the life of SAFETEA-LU, moved aggressively to 
start their program. After a public information campaign and an 
application process, KDOT selected its first 24 Safe Routes to 
School projects in October of 2006, just six months after 
starting our program. In the year since that time, KDOT has 
worked aggressively to educate the public about the holistic 
nature of the Safe Routes to School program and has selected 
over 20 more projects in its second year of funding.
    The flexibility of the program guidance which FHWA provided 
for the Safe Routes to School program has allowed us to fund 
over 10 non-traditional recipients of transportation funding, 
including school districts and non-profit organizations. The 
flexibility of the guidance has also allowed us to 
appropriately fund programs at all levels. Our smallest 
programs focus on single school initiatives where there are 
specific traffic or safety concerns that are not allowing 
children to walk or bicycle to school. Our largest programs are 
being implemented with two of the metropolitan planning 
organizations in Kansas. These programs focus on regional 
programming such as Walking School Bus programs and safety 
education.
    When I speak to local communities, they have found that the 
Safe Routes to School program works. A specific interaction 
that reminded me of the importance of these types of programs 
occurred when I met with leaders from a small town in 
Southeastern Kansas two weeks ago. I asked them why they needed 
a program like Safe Routes to School, why it was important to 
them. They said that their city of around 1500 people was on 
the verge of dying. Their population was aging and their 
children were leaving for college or better opportunities. 
Special programs like Safe Routes to School would help enable 
city leadership to encourage families to move back to this town 
to raise their children.
    Increased livability factors would encourage industries to 
locate near this town, creating more jobs and opportunities for 
folks to live there. Having a more walkable community would 
allow their aging population to maintain their independence, 
instead of perhaps having to leave their home and their town 
for care facilities.
    In my opinion, rural communities are where this program is 
having the most impact. The programs that occur in the cities 
and in suburban areas are doing well and they are very 
necessary, and they have been very successful in Kansas. But 
the $250,000 in a city that we provide, if there is 100,000 
people or so, it isn't having a very big impact on overall 
traffic patterns. Two hundred fifty thousand dollars in a town 
with a relatively small population has a massive lasting 
effect; it has the type of impact that can galvanize an entire 
town to change their future.
    In my conversations with other Safe Routes to School 
coordinators, there is agreement that the Safe Routes to School 
program is working. They appreciate the flexible nature of the 
program because it allows for creativity and for programs to 
meet the needs of their constituents.
    The common complaints from coordinators are that more 
funding is needed to meet the needs of their applicants. In 
Kansas, we turn down over half of applicants due to limited 
funding, and we have very strict application requirements that 
we get fantastic applications, and we have to turn down quite a 
few.
    Coordinators also think that the Federal aid requirements 
are too extensive for such a low cost program. The small towns 
that I work with do not have the staff to work through this 
process; therefore, projects have to be let through the State 
Department of Transportation, which extend the time line of 
projects and make them more expensive. Also, these daunting 
requirements cause some people not to apply for funds, those 
programs that we are trying to target.
    In closing, I would like to thank Chairman DeFazio for 
providing me with the opportunity to testify today. On behalf 
of the 51 Safe Routes to School programs, I would like to 
publicly acknowledge the fantastic work of the Safe Routes to 
School affiliated staff at the Federal Highway Administration 
Headquarters and at the State divisions. I would also like to 
acknowledge the impeccable work of Lauren and her staff at the 
National Center for Safe Routes to School. The work that they 
do in assisting the State coordinators is extraordinary and 
will have a lasting effect on the Safe Routes to School 
movement.
    Again, thank you, and I would be happy to answer any 
questions that you might have.
    Mr. DeFazio. Thank you, Ms. Koch.
    We will now turn to the first round of questions.
    Ms. Marchetti, one of the clearinghouse jobs is to develop 
and share best practices to make certain States are using their 
funding in the most effective way and we are not recreating the 
wheel, so to speak, or the path, or whatever. Can you give us a 
few examples of best practices that you have found that are 
being replicated and working well?
    Ms. Marchetti. We are in the process of collecting case 
studies. We have 35 now that are going up on our website 
probably within the week, and many of these involve looking at 
how schools are reducing speeds, because the speed at which a 
child is hit greatly influences whether or not they can survive 
a crash. We are also looking at encouragement programs. We have 
got documentation of a program in Tucson, for instance, that 
through education was able to increase the walking and biking 
to school by 300 percent.
    The safety strategies are harder to evaluate, and that is 
why we are very excited about this tracking program we are 
setting up. We are hoping that the majority of States will get 
their schools to collect both travel data and parent concern 
data that will help us--and also what the strategies are, and 
then we will be able to do supplemental evaluation so that we 
can understand what works for safety. We feel confident we are 
going to learn what works to encourage kids to walk and bike, 
but we need to do very specific evaluations to understand what 
are the strategies and what are the engineering treatments that 
will be of most value. So it is an ongoing process, but we have 
got some.
    Mr. DeFazio. Great. We look forward to those new postings.
    Ms. Hubsmith, you mentioned in your testimony about the 
delay in project implementation after the grants are announced, 
the problems with both administrative fees and the time 
involved. Do you have any proposals on how to deal with that to 
make it better?
    Ms. Hubsmith. Thank you, Chairman DeFazio. One of the 
possibilities might be to be able to set a threshold for a 
certain amount of funding that if a project was $250,000 or 
less, that there might be able to be a streamlined process for 
implementation of those grant awards. My understanding is that 
Title 23 requires about 12 different forms of paperwork that 
need documentation related to archeological resources, noise, 
dirt, a variety of different things. We believe that the 
rigorous accountability for this program is extremely 
important. It is also important to recognize that most of these 
improvements are taking place in an existing built environment, 
and that when it costs sometimes as much to do the 
administrative fees as it does to implement something like a 
speed bump, that we need to find a way to be more effective.
    In addition, another technique that is being used is the 
bundling of projects, and I believe that might be one of the 
best practices that the national center may discover. I know 
that the State of Massachusetts has worked to allow for one 
contractor to implement their infrastructure projects 
throughout the State, and for bundling them in that way they 
have been able to reduce administrative fees per project and do 
them overall. That may work in smaller States, but I don't see 
that working in a State such as California, that is so big and 
spread out. So some sort of changes to Title 23 would be 
helpful, possibly related to the amount of funding that is 
required if it is taking place in a built environment.
    Mr. DeFazio. Thank you.
    Mr. Bricker, you mentioned bundling also in your testimony. 
Is there any particular difference? You heard Ms. Hubsmith 
mention it can work, but in the larger States, with the 
tremendous dispersion, perhaps not so well. What about the 
Oregon experience? You mentioned that. They are a large land 
area, too.
    Mr. Bricker. Yes, thank you, Chairman DeFazio. We are a 
large land area, especially in some areas not much population. 
The bundling the way Oregon has proposed it, I had mentioned 
that the Safe Routes Advisory Committee in Oregon had actually 
recommended smaller projects, so we really are hoping, with 
only $1 million a year, and maybe 70 percent of that for 
infrastructure, was hoping to only fund smaller, $250,000 
projects or less. So the idea of bundling was, within a 
community, if you had applications for more than one school, 
so, for example, if Eugene was going to apply for three or four 
schools, each school might have $100,000 worth of improvements, 
that they would try and bundle those applications into one 
bunch so they could all be reviewed at once. So it was more of 
community-by-community than it was the whole State with one 
contractor. And that would really only work for the larger 
communities, so for the smaller communities they would be 
handicapped with this process, and, again, I do want to 
emphasize the idea of a streamlining approach.
    Mr. DeFazio. Okay.
    Ms. Koch, on Kansas, obviously, you have a rural challenge 
here. How well does the program work in these more rural areas 
and what are the needs there that we could meet?
    Ms. Koch. We are finding that this program is 
extraordinarily successful in rural communities, which was a 
surprise to us. The research that we have seen from past 
programs funded through our past transportation funding, they 
have all been suburban and urban. So this was kind of a new 
opportunity for us to see if it works.
    The most important thing we have had to do is make sure 
that we are reaching to these communities. A lot of rural 
communities all over the Country don't feel like Federal 
funding is intended for them, so it was important for us to 
make sure that they understood that we were helping them. We 
wanted them to be participating. We took trainings to their 
location; we didn't force them to go to the big cities to go to 
trainings. We provided tons of technical assistance. We created 
opportunities for them to start their program at a planning 
process. If they have never done anything before, we would 
provide them opportunities to plan using our funds. If they 
have already had a planning process, they can go towards 
implementation.
    The most important thing that we have found with our rural 
communities in Kansas is that our poverty rates are 
extraordinarily high. They are as high as a lot of our inner 
city areas in Kansas. So it is important that we are focusing 
on these areas. They don't have the tax base to fix potholes, 
let alone make improvements to make pedestrian areas safer.
    We are also dealing with a lot of aging infrastructure. So 
there are so many challenges in rural communities that can 
really be benefitted by this program. Plus the fact that you 
are dealing with a smaller area where people are wanting to 
have their kids have great qualities of life; that is why they 
live in these kinds of areas. The schools that I work with know 
every single child and their parents on every street in the 
community that they live, and this is the most important thing 
that they can do for their kids, and they are overwhelmingly 
supportive.
    Mr. DeFazio. Great. Thank you. Thanks for that perspective.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    TEA-21 required that each State establish a coordinator for 
bicycling and pedestrian activities. Have you seen any 
overlapping between the coordinator for that and the 
coordinator for the Safe Routes to School program? Are they 
doing the same type of work?
    Ms. Marchetti. I will be happy to address that first. I 
find them to be partners. The ped-bike coordinators have been 
in place for a while, they have a lot of understanding of how 
to get things done in their States in the general area, and the 
Safe Routes to School coordinators often work with the ped-bike 
coordinators. I feel that the combination of interest and 
passion enables both to progress even more. But I am seeing a 
lot of working together and not any overlap that isn't 
positive.
    Mr. Duncan. Several years ago I joined with a Democratic 
colleague and got a program started in the Department of 
Education that we originally called the Smaller Schools 
Initiative, and this was designed to give grants to communities 
to try to help them keep smaller schools open that otherwise 
would have had to close. The name of the program has been 
changed and some things have been added to it, but it was my 
belief then and concern that our schools were getting too big 
and that, in big schools, young people were just numbers and 
didn't have a chance to make ball teams or be presidents of 
clubs or cheerleaders or whatever. And I had read that in 1930 
the average size school in this Country had a little over 100 
students. Now, of course, it is much, much bigger, and parents 
keep demanding brand new schools, but then they generally make 
those schools bigger and further away from students.
    I am just wondering if there is not some way that--I think 
a child is better off to go to school in an older building, as 
long as it is clean and well lit and safe, than they are to go 
to some big giant school far away from their home. I am just 
wondering if there is some way that you can join your 
activities, because it is going to be harder to walk and 
bicycle to schools if we keep moving these schools further and 
further away from the students. I mean, those are just some 
thoughts, I guess, not really so much a question. Any comments?
    Ms. Hubsmith. Yes, Ranking Member Duncan. Thank you very 
much for bringing that up and for initiating that small schools 
initiative. I agree with you 100 percent that students are 
learning better in smaller schools, and there are studies that 
are supporting that as well. One of the things that we are 
noticing through the Safe Routes to School program and the fact 
that it is creating a dialogue between cities and school 
districts that traditionally have not communicated with each 
other on a regular basis is that it is helping to lead to 
discussions about issues such as school siting, because there 
has been a change in recent years. In 1970, about 50 percent of 
children in the United States lived within two miles of their 
school, and now that is only 33 percent of students. So by 
creating this Safe Routes to School program and opening up that 
dialogue, there are now discussions that are going on about 
school siting master plans and how that can interrelate.
    For example, in California, one of the things that has 
happened because of the Safe Routes to School program and the 
fact that we received a grant from the Robert Wood Johnson 
Foundation to focus on barriers to children walking and 
bicycling to school is that we are able to broaden our approach 
to take a look at issues such as school siting, and we have 
come under advisement that the California Department of 
Education is currently revising their application guidelines 
right now for school siting. So we have brought together a 
coalition that includes a variety of different organizations, 
including the California Department of Public Health, to work 
together with the California Department of Education and the 
California Department of Transportation to make sure that as 
the Department of Education is revising their guidelines, that 
they are keeping in mind the fact that transportation to the 
school is important and that the size of the school is 
important, and that we should be having incentives to renovate 
older schools that are within walkable neighborhoods.
    Mr. Duncan. Well, let me ask you this. You said today only 
one third live within two miles of their school. What was the 
front end of that statistics, in 1970?
    Ms. Hubsmith. Fifty percent.
    Mr. Duncan. Fifty percent.
    Well, let me just say one other thing. We have gotten this 
annual report and everything in there is good. I have got no 
criticism when I say this. But having said that, everything in 
there refers to documentation, data collection, evaluation, 
surveys, conferences, meetings, training, creation of web 
sites, a Safe Routes to School library, a toll-free line, e-
mail, a question and answer database, all that kind of stuff. 
Now, what I am getting at is this. I am sure that in the 
creation of a new program all that had to be done, but I hope 
that if we have a hearing on this a year from now, we won't 
hear about all this surveys and studies and data collection and 
libraries and conferences, but what we will hear about is 
actual projects, actual safe routes being created.
    This Committee has been referred to many times over the 
years as the Build America Committee, and at some point we want 
all these studies and data collection to stop and actual 
highways to be built, or actual runways to be built, or actual 
water projects to be completed. Do you see what I am getting 
at? I hope that if you come back a year or two from now in a 
hearing we won't hear about all this paperwork and all this 
bureaucracy, we will hear about actual projects, actual safe 
routes that have been created. So I hope you will make that 
your goal.
    Ms. Marchetti. Thank you, sir. That is our report and I can 
explain that. You are absolutely right. What we recognize, 
though, is that we got started after the States were already 
starting their programs, having their State coordinators, and 
our biggest concern was that this is the one chance some 
communities are going to have to build something that could be 
there forever, and we wanted to make sure that they had the 
expertise and the knowledge to make their own decisions----
    Mr. Duncan. But what I am saying is this: It is good that 
you have done all this, but now that we have done it, let's 
move to the next level. Let's move to the next step and let's 
get some actual safe routes done.
    Ms. Marchetti. Absolutely.
    Mr. Duncan. That is what I want to hear.
    Ms. Marchetti. We feel like we have got the information 
place now and it is time to get going.
    Mr. Duncan. You can just flood yourself with so much 
information and nothing ever gets done. I mean, you know, we 
can read about these bills and these issues for years and we 
can study them, but nothing ever gets done if you don't do 
anything but read, study, and collect data. You have got to act 
at some point..
    Ms. Marchetti. One last thing I would like to say to 
support what you are saying. The other piece of paper we placed 
in the folders was a summary showing that early States were 
spending funds at 80 percent of available funding. This money 
is already out the door, has been awarded.
    Mr. Duncan. Well, as long as it is out the door, though, to 
create--see, if the States are doing the same thing and they 
are doing paperwork and creating web sites and data collection 
and all that.
    Thank you very much, Mr. Chairman.
    Mr. DeFazio. Okay. I thank the gentleman.
    Did I see you grasping? All right, Ms. Koch, go ahead.
    Ms. Koch. Yes. I just want to speak on behalf of the 
States. The States that have funded programs are not laden in 
paperwork. We have 24 projects we funded last year. Most of 
those are planning, but we are doing some projects that are 
hitting the ground, that involve construction and getting kids 
out there. The things that are happening with the National 
Center for Safe Routes to School are a low amount of funding in 
relation to the projects that are being created, and 40 of our 
States are already in the process of funding and getting 
projects on the ground.
    Mr. Duncan. Good. Thank you very much.
    Now I have got to, unfortunately, slip out to another 
hearing. Thank you, Mr. Chairman.
    Mr. DeFazio. I understand the gentleman has a very 
important hearing to go to. Thank you.
    Mr. Oberstar. Mr. Chairman, before the gentleman leaves, I 
plead guilty to insisting on the reports, the documentation, 
establishment of a database, tracking, and accountability. That 
was something I insisted on, that we would be able then to 
track the results of this program, leading up to exactly what 
the gentleman is talking about, what are the results of Safe 
Routes to School? Are you putting in traffic calming? Are you 
doing crosswalks? Are you building sidewalks, putting in 
traffic lights at schools? And there are numerous examples of 
these success stories already reported through this 
documentation. The program is, I think, through the 
documentation stage and ready, and will now be reporting on the 
implementation. I have a number of such projects in my own 
district, but I know that Ms. Marchetti's testimony, Ms. 
Hubsmith's testimony, and that of Ms. Koch relates several 
exemplary sample success stories.
    So the gentleman's concern is rightly taken, but I will 
plead guilty to the insistence on documentation because I felt 
it was, at the outset, to set up a documented database and a 
tracking for this program so that we can ave the accountability 
that the gentleman is asking for.
    Mr. Duncan. Well, I will just say this. I think the 
Chairman knows that nobody in the Congress admires and respects 
him more than I do, and if you notice that when I first started 
that I said I think that all that was necessary and good that 
we collect that; I am just saying that now I hope we don't get 
bogged down in the paperwork so that we don't accomplish the 
good things that the Chairman wanted us to accomplish through 
this program.
    Mr. Oberstar. Rightly said and rightly taken. Thank you.
    Mr. DeFazio. I thank the gentleman for that clarification.
    The gentleman from Iowa.
    Mr. Braley. Thank you, Mr. Chairman.
    For the members of the panel and members of the audience, I 
have the privilege of serving as the Vice Chair of this 
Subcommittee, which means I spend most of my time getting 
coffee and making copies for Mr. DeFazio.
    But I also am very privileged to represent the Field of 
Dreams, where the saying ``if you build it, they will come'' 
became part of our national dialogue. And I think that applies 
to the Safe Routes to School program. One of my big 
frustrations is that so many of the decisions on Safe Routes to 
Schools are impacted by local jurisdictions and how they have 
local zoning ordinances and building codes that can influence 
whether or not sidewalks are built on passways to schools, and 
one of the things I would like to hear about from the panel is 
what you have learned from the work that has been funded to 
date on this program about the intersection of Federal policies 
and local building codes and what additional work needs to be 
done to bridge that gap.
    But I am also very concerned about how this is playing out. 
I happen to represent a district that has urban schools, 
suburban schools, and many rural schools. Having grown up in a 
town of 1500 and being one of the 42 percent of students who 
walked or rode a bicycle to school in 1969, when I was in sixth 
grade, I realize that there are vastly different challenges 
when you are dealing with Safe Routes to School in urban areas 
contrasted with rural areas.
    So I would like to open it up to the members of the panel 
to comment on those two topics, and I will yield the balance of 
my time.
    Mr. Bricker. Thank you for your comments and questions. I 
can really only give my experience in Oregon, but I think it 
might relate to Iowa and other communities.
    In my experience, at least from the local level, the major 
intersection that tends to not happen is between the schools 
and the road authorities. The road authorities tend to be 
county and the city governments, and sometimes State 
governments, and the schools tend to have their own elected 
board with making independent decisions, and the coordination 
between the two is tenuous, at best.
    As a transportation advocate, for the last 10 years I have 
been going to transportation meetings from the State to the 
local to the regional. I mentioned that Oregon spends $300 
million a year on school bus funding. That is a lot. That is a 
lot of transit service, and I never have seen school bus or 
school transportation represented. In my experience, the land 
use decisions made by schools, while it has to fit within 
zoning codes and whatnot of local authorities, they are not 
necessarily vetted in the same way that if you were a public 
agency, that you are going to make your decisions.
    The implications on the transportation system, the burden 
on the transportation system that schools might be generating 
by locating a school further out because they want a larger 
piece of land is not necessarily vetted through the city the 
way it would be if you were responsible for both the roads and 
the schools. So, in my experience--and I am less experienced 
about how the Federal policies work within that, but that 
intersection is one of the major things that is missing from 
just a political standpoint.
    I don't know how it works in Iowa, but in Oregon the school 
bus funding goes all through the State. So every school 
district is reimbursed between 70 percent and 90 percent of 
their school bus funding, whether you spend $1 or $1 million or 
$10 million. The incentive to actually reduce the school busing 
cost is very low. So even if you build a new school and it 
doubles your school busing cost, if you are only paying 30 
percent or 20 percent of those costs, there is not much 
incentive to bring that school back.
    So that is my experience, and I don't know if that helps at 
all.
    Ms. Koch. Speaking on behalf of a State DOT, I just want to 
thank you for your input and let you know that in the State of 
Kansas, when we do cite reviews to fund programs, one of the 
most important questions we ask is if they have local 
subdivision regulations that support this program. If we build 
something and then they build new subdivisions and they don't 
have any requirements for modernization of their roadway 
facilities or sidewalk improvements or improvements at 
intersections, then we are going to lose that program once it 
gets into that neighborhood. So that is a very important part 
of our decision-making process, to ensure that what we start 
with our seed money is encouraged through their city-wide and 
county funding.
    Also, Kansas does have very stringent guidelines for this 
program, so I can't speak on behalf of all State DOT programs, 
but we take that very seriously.
    Mr. DeFazio. Thank you.
    And I thank the gentleman for that question.
    The gentleman from North Carolina.
    Mr. Coble. Thank you, Mr. Chairman. Mr. Chairman, I regret 
that the gentleman from Iowa admitted he was in the sixth grade 
in 1969. That is very demoralizing. What did you say, Mr. 
Chairman?
    Mr. DeFazio. You weren't even born then, were you, Howard?
    Mr. Coble. No comment.
    Good to have you all with us.
    Ms. Marchetti, in your testimony you included a breakdown 
of program activity from various States, but our State was not 
included. Can you give us some information as to how the 
program has been implemented in North Carolina and the results 
thereof?
    Ms. Marchetti. Yes, sir, thank you. North Carolina was off 
to a great start in the example of the pedestrian and bicycle 
coordinator working with the Safe Routes to School coordinator. 
That was going quite well. Unfortunately, the person who was in 
the position, who had already started doing a lot of training 
across the State, had to leave the position and a new person 
has started, and that is one of the reasons why North 
Carolina's results don't show up as a lot of other States do. 
However, the commitment of the pedestrian and bicycle 
coordinator, combined with the new Safe Routes to School 
coordinator, they have already started doing programs and we 
are going to start seeing some things on the ground very 
shortly.
    Mr. Coble. Thank you.
    Ms. Hubsmith, do you have data that supports your statement 
that the Safe Routes to School program will decrease energy use 
and reduce carbon emissions? I don't doubt that that is 
accurate, but do you have data to support that?
    Ms. Hubsmith. Thank you very much for asking. The program 
has been proven to decrease the number of cars that are 
arriving at some schools, and by decreasing the number of cars, 
calculations can be made that energy is being saved and carbon 
emissions are being reduced. These are the types of things that 
we are looking to be able to calculate more fully as the 
program is implemented more in the future, and it is one of the 
reasons why we put in place the rigorous tracking system. My 
information from this is coming from many programs that have 
been implemented in California that has had a program for many 
years and has shown that we are decreasing the number of cars 
that are coming to schools and then, by proxy, energy and 
carbon emissions are being decreased as well.
    Mr. Coble. I thank you for that.
    Mr. Bricker or Ms. Koch, either one, I am told that 
parents, in many instances, have expressed concern that their 
children may be at risk, as far as safety is concerned, while 
biking or walking to school. How can the Safe Routes to School 
program address those concerns?
    Ms. Koch. This is certainly what we are seeing in a lot of 
our data that we collect from parents, that they have concerns 
about traffic safety. But a lot of those concerns that they 
have are about personal safety, about kidnapping or bullying, 
or other things that they can't prevent if they are not there. 
Something that we really promote with the Safe Routes to School 
program are group walking or biking, Walking School Bus 
programs, bicycle trains, where children are accompanied to 
school with adults that the parents know, adults that have gone 
through background checks, so that they know that they are 
legitimate volunteers of the school district or the city, that 
they have obligation to get those kids to school safely and 
consistently. That is one way that we do it.
    We understand this is a concern. We honor that concern 
those parents have and we work with our local communities to 
ensure that they have the set of skills they need to create 
programs that meet those concerns and that the kids can still 
get there walking and biking.
    Mr. Coble. Do you want to add anything to that, Mr. 
Bricker?
    Mr. Bricker. She did a great job.
    Mr. Coble. Good.
    Mr. Marchetti, you indicate that between 5 percent and 51 
percent of students live within walking distance to their 
schools. Let me put a two-part question to you. How do you 
define walking distance, and why is the range so wide that it 
is 5 percent to 51 percent?
    Ms. Marchetti. Thank you, sir. The walking distance is 
considered one mile, especially for younger children.
    Mr. Coble. One mile?
    Ms. Marchetti. One mile is walking distance to school. 
Bicycling distance is considered more, two to three miles. The 
range is because we still have some community schools, we still 
have some consolidated schools. The point there is that there 
are some schools where as many as 50 percent of the children, 
with proper environment and encouragement, could be walking and 
we could be reducing the congestion around the school.
    I would like to make a quick comment about when we were 
talking about school siting. We used to have schools that had 
an average of 150 students per school. We have gone to such 
extremes that one State had a campus so large that they were 
busing students from one building to the other. That State has 
since rescinded their acreage rules for schools.
    What we would like to see is go away from the 5 percent 
schools and go more to the larger percent that could be walking 
and biking.
    Mr. Coble. Mr. Chairman, if I could ask one more question. 
I know my red light is on.
    To any of the panelists, what percentage of school children 
walked to school or biked to school prior to the implementation 
of the Safe Routes to School program, and what is the 
percentage today, if you know that?
    Ms. Marchetti. I will take that question. It is a very good 
question. Unfortunately, it is a question everyone would like 
to have answered, and we are just now in the process of trying 
to figure it out. The tally forms that we have produced would 
enable schools to ask students two days during a one-week 
period a year how did you get to school, and this way we would 
be the first to start getting that kind of information. If we 
can get comparison sites, then we would be able to understand 
what schools who haven't had this opportunity are experiencing 
versus what the schools that do have the opportunity.
    So we are in the process of understanding that, but that is 
a universal question that people have been asking and wanting 
to find solutions to.
    Mr. Coble. If you could get that to us, we would appreciate 
that. Thank you.
    Ms. Marchetti. Yes.
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman. I would just ask the 
gentleman she said the biking distance was three to five miles. 
I was wondering on the penny-farthing bikes in the gentleman's 
day, how far could you ride one of those big things?
    Mr. Coble. The gentleman from Oregon is giving me a hard 
time, but he is doing it with a smile on his face.
    [Laughter.]
    Mr. DeFazio. Mr. Baird, do you have any questions?
    Mr. Baird. Just very briefly. I just came back from a 
weekend in London and noticed a tremendous amount of people 
bicycle commuting. Forgive me for coming in late, but have you 
talked about how our kids get to school relative to young 
people in other nations? Where do we stand? If you have already 
covered it, forgive me for asking. I am familiar with Holland 
and other places. Everybody is riding bikes. In London, we just 
saw lots of bikes on the streets, and this was on the city 
streets.
    Ms. Marchetti. I would like to make a quick comment on 
that. I was just at a conference yesterday in Toronto on Active 
and Safe Routes to School. It was an international conference 
and, oddly enough, people from the U.K. and Canada were asking 
how we were getting our good program started. They do have 
great experiences, but they are also starting to see some 
problems coming up. One of the issues that we discussed 
yesterday was that as they make it easier for parents to drop 
off their kids in cars, they are seeing a decrease in walking 
and biking. They are very concerned about that and looking for 
solutions.
    So we are all sort of on a continuum. They had early 
successes. Then, they did something that is reducing their 
successes, and we are hopefully learning from each other that 
way.
    Mr. Baird. We had a hearing on a Committee I Chair, 
Research and Science Subcommittee, on how social sciences 
inform energy consumption policies, and very subtle differences 
in the wording of persuasive messages can make 30 percent, 40 
percent differences in such mundane things as recycling towels 
in hotels. Are you incorporating any social science research in 
your strategy to encourage use of bikes or walking to school?
    [No response.]
    Mr. Baird. That is not a good sign.
    Ms. Koch. I guess I can speak to that. A lot of what we do 
is trying to change social behaviors, and if we can make 
walking or biking social activities, activities that have 
positive connotations, rather than negative connotations, we 
find research that shows that when people see adult pedestrians 
or adult bicyclists, they have negative connotations about 
those people: that they are poor, that they don't have access 
to vehicles, that they are part of our society that we are 
throwing away. If we can change that through positive messages 
at a young age, then we can incorporate that as they get older 
and make it a more positive message so that people will want to 
walk or bike, they will choose that.
    The most important thing we do with Safe Routes to School 
is enable people to make a choice. We don't want to force 
anyone to do anything, but we want to give them that 
opportunity so that they can make lifetime behavioral changes.
    Mr. Bricker. If I may follow up, Mr. Baird. In Portland we 
started working on a program called Smart Trips--it is actually 
a European program that had a slightly different name--and for 
the last four years in Portland bicycling has been increasing 
exponentially. We have a pretty well built-out bicycle network, 
and in the last four years we have been promoting the bicycle 
network, as opposed to substantially increasing the bicycle 
network, and what we have found is that by just giving messages 
to households that there is a significant reduction in 
automobile trips; just by asking people are you interested, and 
then when they say, yes, I am interested, giving them more 
information and support. And I truthfully forget the data, but 
it is something like a decrease of 9 percent in automobile 
trips and, as I mentioned bicycling is increasing 
exponentially. In Portland right now, a lot of the effort is 
marketing.
    We are also, at the same time, learning new strategies. We 
have learned that people prefer to bicycle in larger numbers 
together. We have learned that people prefer to bicycle in low 
traffic streets, as opposed to the really busy streets, so we 
are talking on new strategies to even try to increase. So I 
think part of this is that, really, we are in sort of a young 
profession, really, in 1991, in ISTEA, where we really started 
working on bicycling. So some of this stuff is young, but I 
think that we are getting some data collection.
    Ms. Hubsmith. And if I just may add, I think we all needed 
to think for a moment because it was such a good question. One 
of the hallmarks of this program is that it gives flexibility 
to the DOTs to fund infrastructure improvements between 70 
percent and 90 percent, and non-infrastructure improvements 
between 10 percent and 30 percent. So the DOTs are working 
together, and many of them, even though it is not a Federal 
requirement, have formed advisory committees. In fact, 36 of 
the States have formed advisory committees that bring together 
the Department of Public Health with Education with law 
enforcement in order to work on issues such as that. Many 
times, Departments of Public Health have done a lot of research 
around messaging, which is why it is really important to bring 
them in.
    At the local level, as well, the program is based on the 
five Es, and every community determines how to implement those 
Es, which are Evaluation, Education, Encouragement, 
Enforcement, and Engineering. And while a program is different 
whether it is in a rural area, suburban area, or an urban area, 
the common practice is bringing the community together to 
address how to realize those five Es, and with Evaluation being 
the first one, it is really important to survey the parents as 
to what it would make them do to change their behavior. So 
messaging is often incorporated on the State level, on the 
local level based on the concerns of the community, and then 
also based on the grade level that you are working with.
    We found that this program serves K through 8. The K 
through 5 children, elementary school, are reacting in many 
ways to their parents, so messaging is detailed a lot more 
toward the parents. When you get toward middle school, many 
times you will work through student leadership groups to have 
the students develop the messages and then to bring those 
messages to their students, because they are very influenced 
from their peers. So there is a lot of work that is being done 
with that to tailor the messaging.
    Thank you.
    Mr. Baird. I appreciate that very much. That is good news. 
I would just encourage, also, to look at the literature in this 
field. One of the studies that we had--and my staff will get 
you this, but a gentleman was looking at--I mentioned about 
towel usage in hotels. Well, they were able to increase towel 
recycling by 34 percent by just changing the message, and here 
is the take-home point that is troubling: none of the messages 
that they found most effective were actually being used by any 
of the hotels. The hotels were saying if you recycle your 
towels, you will save energy, you will save the planet, the 
world would be a better place, we sing Kumbaya, basically.
    What they found was that the most effective message was 
everybody else is doing it, you don't want to be the guy who 
isn't. I mean, that is paraphrased, but the point being wrong 
messaging can actually be counterproductive, even if you think 
it is right. And if we have got some good literature on this, 
good data, empirical studies would actually put different 
messages.
    They actually found, similarly, at Petrified National 
Forest, the signs that were intended to cause people to not 
take petrified rocks from the forest actually increased theft; 
whereas, a different version actually decreased it. So you want 
to be careful and hopefully disseminate that. Thank you.
    Mr. DeFazio. I thank the gentleman for that observation.
    Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman. I am fascinated by this 
whole conversation here, about how to encourage students to 
walk or bike to school, do it safely. I mean, my own household 
is a classic example of this. My children take the bus to 
school, even though I try to tell them it is only a couple 
hundred yards further to the school to walk. You are going in 
the right direction and I lose all these articles at home, so I 
realize what you are up against trying to persuade people. But 
it has been a continuing frustration for me, just in my own 
household, to talk about the benefits of walking to school 
when, in fact, it seems to be socially fun to ride the bus, as 
opposed to walk. These are just the issues that I face in my 
household. Yours are much greater.
    I just wanted to ask you a question, Ms. Hubsmith, if I 
could. You may have touched on this already, and if you have, I 
apologize. Do you have any kind of quantitative data that can 
support your statement that Safe Routes to School programs will 
decrease energy use and reduce carbon emissions? Do you have 
any data on that up to this point?
    Ms. Hubsmith. At this point, right now, what we are doing 
is we are gathering data, and my statement about that was based 
on some of the early implementation of programs prior to 
SAFETEA-LU. In California we have seen that the program has 
increased walking and biking in the range of 20 percent to 200 
percent and has improved safety up to 49 percent. By increasing 
the walking and biking, we have decreased the number of 
automobile trips, and calculations can be made about the miles 
that students are from school and, as a result, how much energy 
and how much carbon is being decreased.
    Through the tracking system that the National Center for 
Safe Routes to School is putting in place, we will be able to 
learn much more about how this pans out with the implementation 
of the SAFETEA-LU program, and we look forward to providing 
more of that hard data to you in the future, which is one of 
the reasons why we have worked so hard on evaluation and data.
    I would add that one of the things I mentioned in my 
earlier testimony is that we would really like to work together 
with Congress to have even more rigorous systems for data 
collection, and we feel that we can be collecting data as part 
of the census, as part of the National Household Travel Survey, 
and also finding ways, when FHWA collects data from States, to 
add in more information about collecting data related to 
schools. We know that Congress is moving more toward a 
performance-based analysis for transportation systems, and we 
are all in favor of that. We would really like to have your 
help in terms of being able to further quantify these things 
because we know they are working.
    Mr. Dent. Also with respect to quantifiable data, I think 
you stated that up to 30 percent of the morning rush hour 
traffic is generated by parents who are driving their children 
to schools. You said that earlier, did you not?
    Ms. Hubsmith. I did. Thank you. These are data that come 
from local communities, it is not data that is collected at the 
State level. In Marin County, California, where I am from, they 
determined that between 21 percent and 27 percent in the 
morning traffic is parents driving their children to school. 
That is from the Transportation Authority of Marin. Similarly, 
in Santa Rosa, their traffic engineer says it is the same 
number. And we are seeing similar types of studies in other 
communities.
    These are done on a community-by-community type basis 
because the data is not supported at the State level yet.
    Mr. Dent. I don't doubt the data, it seems logical to me, 
just my observations dealing with taking kids to school and 
watching the morning traffic patterns in my community. I 
wouldn't be surprised by that number. But I guess the follow-up 
to that would be if these parents are dropping their children 
off on the way to way to work or to run some other errand, do 
you think this program is going to have a real impact on 
reducing congestion?
    Ms. Hubsmith. I do think that it will. In fact, in Marin 
County, California, what we were able to see is that, 
consecutively, every year we have seen a 13-point percent 
decrease in traffic congestion around the schools because we 
are reversing the way that children are coming to school. By 
making it safer for students to walk and bicycle, and 
especially by incorporating improvements like the Walking 
School Bus, where one parent will walk with the group of 
children together, coupled with engineering improvements and 
adding in law enforcement, police officers that are out there 
on the street and enforcing the speed limit, we are able to 
show a decrease in traffic congestion around schools, which 
also then improves air quality, and it creates sort of a cyclic 
effect because as more people begin walking and bicycling, 
others begin to want to do it as well, and it is really 
something that helps create a positive momentum within the 
community when we get law enforcement and other infrastructure 
improvements involved.
    Mr. Dent. Well, thank you. This panel has done a great job 
of informing me so I can go back home at the end of this week 
and instruct my children and wife that it is better to walk to 
school, for a lot of reasons that you have identified. Now I 
have empirical data to back it up, so thank you for that.
    I yield back.
    Mr. DeFazio. The gentleman might consult with the resident 
psychologist on the most persuasive techniques for that 
messaging.
    Mr. Dent. I have already done so.
    Mr. DeFazio. Oh, okay. All right.
    I turn now to the Full Committee Chairman, Mr. Oberstar, 
for his questions.
    Mr. Oberstar. Thank you, Mr. Chairman.
    Mr. Dent, thank you for those questions and comments, and 
for your own personal experience. I will give you an example 
from Sacramento, where my son lives. Son Ted, when he was in 
high school, was a trainer for the football team and he wanted 
to drive the family car to practice. I put a backpack on my 
back, got on my bike, and pedaled with him to school to show 
him it could be done. He is now a father of two. He gets on his 
bike with my granddaughter, Kathryn Jo, and they pedal from 
their home about a block and pick up Kathryn's friend, Sierra, 
and then they pedal another block and they pick up their friend 
Jackson, for Jackson Hole--this is California; they are named 
for mountain ranges and things--and then they pick up another 
couple of children and then they cross this 100-foot street to 
the school, and Ted then pedals on to CalTrans, California 
Transportation Department, where he works.
    What do you suppose Kathryn is going to be doing 20 years 
from now? She is going to be biking with her children to 
school. And in the process, crossing that 100-foot street, Ted 
observed that the apartments and condos and single-family homes 
on the one side, children were being bused less than a quarter 
of a mile, just the example that you gave, to this school. He 
said, that is crazy, why are they doing this? So he met with 
the city planning department to get a traffic calming and 
traffic lights and they said, oh, we can't do it, we don't have 
the money. So Ted figured out how to do it. And he also went 
out and got a city councilman elected, school board member 
elected, and a mayor elected to enforce all these things, and 
they changed it. They now have traffic calming, they have 
traffic lights, the kids from the apartments and so on are now 
biking and walking to school. It takes a lot, but you can 
change the habits.
    Mr. Bricker. Will the Chairman yield?
    Mr. Oberstar. I yield to the gentleman.
    Mr. Bricker. One thing I have noticed about this issue, 
from a personal perspective, is my wife is concerned about 
security. There seems to be more security in going to the bus 
stop than walking to the school, even though I can see my child 
just walk to the door, practically. But there is some fear that 
something could happen on the streets. When I went to school, I 
always walked to school out of sight of my parents and much 
greater distances, but because of our society and the criminal 
element out there, there is such a fear among many parents. 
There seems to be security in numbers in the buses.
    I am not sure how you overcome that, but I am trying to 
talk to that psychologist for my wife to see if she can 
overcome some of those fears. It is just an issue that I just 
wanted to share with you.
    Mr. Oberstar. Absolutely, and that is why we started out 
with--maybe we have to change the term to Securer Routes to 
School, because that really is what it is all about. When I was 
a elementary and junior and senior high school student walking 
to school, the worst we had to fear was an errant snowball 
being thrown in our direction. But not so anymore.
    The question has been asked what are the success stories, 
and Mr. Duncan raised the question about studies and reports. 
The education and the engineering part of the five E's are 
foundational activities. You have to develop the database. You 
have to do the engineering. You have to do the education. As we 
learn from the Marin County experience and the Arlington, 
Massachusetts experience, you have to develop a base of 
information, design engineering and find the trouble spots, the 
traffic obstacles, the security questions, and address those 
with the infrastructure changes that are needed, with the 
training of students to safe practices in both walking and 
cycling, and then implement the infrastructure changes that are 
needed: sidewalks, traffic lights at key crossing areas, 
lowering traffic lights to eye level for walkers and cyclers. 
All those are in the works. This is foundational.
    But in Deb Hubsmith's testimony there are at least four 
pages of success stories. In Idaho, until recently, children 
had no choice but to walk in the street because there were no 
sidewalks. There are now sidewalks being built. That makes a 
huge difference.
    In Michigan, 223 schools training 547 people in 100 school 
districts. More than half of the counties of Michigan are 
engaged in this foundational work of training, changing mind-
sets, changing attitudes. That is hard to do, to change 
people's attitudes, especially about walking and biking to 
school, but those things are being done.
    In Missouri, 160 children, six schools register for the 
Walking School Bus program and walk to school every day on 14 
different routes.
    In Two Harbors, on the north shore of Lake Superior, in my 
congressional district, the city has had a school right on the 
shore of Lake Superior, spectacular view, but it is an 80 year 
old school building. They built a new one inland, on the other 
side of a major highway. Most of the people live on the east 
side of that highway. But the students said build us a trail, a 
round trip, so that we can bike and walk to school and come 
home by a different route, and with the help of some funding 
and in TEA-21 and SAFETEA-LU, that two mile bike trail and 
walking trail has been built, and it is in constant use. And 
when the kids are in school, the parents are out using the 
trail. I see them every time I get up to Two Harbors.
    In the southern end of my district, in Cambridge and 
Isanti, two small towns--well, Cambridge is not so small by our 
standards, it is 6,000 people now; Isanti is about 1,500, 
2,000. But the children from Isanti go to school in Cambridge, 
four miles away. What separates them is a wildlife waterfall 
wetland, otherwise known as a swamp.
    Well, they said why can't we bike and walk to school? And 
if we could go through the wetland, it would also be 
interesting. And now they are doing that with an elevated wood 
four mile facility. Well, it is about two miles of elevated 
wood pathway, with appropriate railings, and then paved asphalt 
on the other ends. They love it. They are excited to get to 
school, to talk about muskrats and herons and geese and ducks 
that the have seen on the way. This is exciting and it is 
changing habits, and they are healthier and they are ready to 
learn when they get to school.
    In Marin County, Ms. Hubsmith, you didn't state at all the 
success story. Tell us when you started Safe Routes to School 
and the percentage now that are participating.
    Ms. Hubsmith. Thank you, Chairman Oberstar. When we started 
the pilot program back in the year 2000, about 21 percent of 
children were walking and bicycling to school, and in my 
testimony I indicated that at the end of that first year there 
was a 64 percent increase in the number of students walking, a 
114 percent increase in the number of students bicycling, a 91 
percent increase in car-pooling, and a 39 percent decrease in 
the number of students arriving by private car carrying only 
one student.
    And I will add that after the one year of funding from the 
Federal Government, the county did not want the program to end, 
so what happened after that was that the Marin Community 
Foundation chipped in some funding in order to make it possible 
to continue. Then the Bay Area Air Quality Management District 
provided a few years of funding. Then the funding was going to 
end because all of these funding streams were only allowed for 
one or two years. The county was looking for a way to deal with 
our aging infrastructure and was going to be launching a 
transportation sales tax in order to deal largely with roads 
and transit, and one of the things that they polled upon was 
how would people like to support a measure that included Safe 
Routes to School and enable that program to continue so it 
could be safe. It was one of the highest things that came up in 
the community poll. So they ended up dedicating 11 percent of 
the transportation sales taxing to the program.
    So our Marin County program is now in 45 of our schools, 
which is two thirds of our schools, and we are seeing a regular 
amount of decrease in the number of cars that are arriving at 
schools as a result of the program. It has been very successful 
and we are very grateful to have had the opportunity to work 
with the Federal Government to do that pilot.
    There has been a 13 percent decrease. And if you go to the 
web site tam.ca.gov, and then click under Programs for Safe 
Routes to School, there is about a 50 page evaluation report 
that substantiates how that has happened.
    Mr. Oberstar. Those are just striking numbers and exciting 
numbers, and the goal is to replicate them all around the 
Country, and as the foundational work takes hold, the education 
work and all, that is going to happen.
    Mr. Bricker, I was struck by your observation that Oregon 
spends $300 million a year on bus transportation, over 50 
percent of children are driven to school. I never thought about 
that. If we can reduce the amount of money that States and 
school districts are spending on school bus transportation. We, 
in fact, did get a good deal of push-back from the bus drivers 
organization and from private school bus companies that 
contract with school districts to provide schools: oh, you are 
going to take our business away from us. Well, I hope so. I 
hope so. But I have never seen it quantified before, and you 
have provided a great service to us. Have you heard any such 
push-back from the private or public school bus operators?
    Mr. Bricker. Well, Chairman Oberstar, I appreciate the 
opportunity to talk about this. This is one of those issues, as 
a bicycle advocate and lobbyist, and a pedestrian advocate and 
someone who is in the Capitol, this is something that is very, 
very challenging, as you can imagine. There is a lot of money 
in school busing, $300 million, and there is a desire to make 
sure that every kid can get to school safely. So I want to 
acknowledge that every student should be able to get to school, 
and I believe that when the law in Oregon that basically 
required school busing was created, it was out of creation for 
every child to be able to get to school.
    However, the school bus fund is not eligible to fund--well, 
it is not clearly eligible to fund transportation projects that 
would reduce the cost, and I do believe we have not had success 
working with the school bus lobby on trying to shift some of 
those dollars. So if only 1 percent of those funds went, we 
would triple the amount of money we are getting for Safe Routes 
to School, and if 10 percent, if we had $30 million a year to 
increase safety for schools around Oregon, we could 
significantly reduce the ongoing costs for school bus 
transportation.
    And the other thing to note on school bus transportation is 
the school buses are only half full. The way that they are 
created, they do these routes and half of the time kids are 
driven to school and half of the time they get on the bus. So, 
really, from a performance standpoint, it is not very clear how 
effective those funds are being used. So while school bus is a 
very safe way to get to school, an important way for kids who 
live miles and miles away from school, within the areas of one, 
two, or three miles, many kids are getting driven to school and 
many kids are getting bused because of the safety improvements. 
If we were able to flex some of those dollars, we would be able 
to reduce long-term costs, and I think that that would have 
appeal to most decision-makers.
    Mr. Oberstar. Thank you very much.
    I will yield to the gentleman from Oregon.
    Mr. DeFazio. I thank the gentleman for yielding. 
Unfortunately, the No Child Left Behind Act may have a 
provision which will actually increase the use of busing, 
rather than decrease it, in that it mandates that if you are in 
a school that is deemed to be failing under AYP, the school 
actually has to set aside a trust fund, basically, that would 
be used to bus the kids to another school of their choice. I 
actually had the unfortunate experience of being at a school 
where the principal was in the process of laying off 24 
paraprofessional educators because their salary, instead of 
being used to help educate the kids to help them succeed, had 
to be set aside for a fund to pay for the cost of busing to 
send kids to another school. And, by the way, that other school 
didn't have to have demonstrated any better success with that 
same population. So No Child Left Behind may actually, 
paradoxically, increase busing to other schools and, thereby, 
all the other side effects we have talked about today.
    Mr. Oberstar. Maybe we can change this to No Bicyclist Left 
Behind. I thank you for that observation. One final comment, 
Mr. Chairman.
    Ms. Koch, I really appreciate your comments and 
observations about the experience in Kansas, physical changes 
around the school zone, soft-side elements, encouragement 
programs. Flexible nature of the program, that is what we 
intended it to be. We gave flexibility and you have shown how, 
in Kansas, that flexibility is serving the needs of 
constituents and tailoring the program to the varying needs of 
differing size communities.
    And I appreciate your observation about application to 
tribal governments, and I will follow up further on that 
matter.
    But your final paragraph, local communities, small town in 
Southeastern Kansas, why do they want this Safe Routes to 
School program? Because their city of 1500 people is on the 
verge of dying, and that a Safe Routes to School program would 
encourage families to move to the town to raise their children, 
and you create a--you call it a livability, I call it quality 
of life issue. If we can achieve that around this Nation, we 
will have accomplished something extraordinary.
    Thank you very much, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman for his leadership and 
for that inspiring statement.
    Mrs. Capito.
    Mrs. Capito. Thank you, Mr. Chairman. Very interesting 
topic, Safe Routes to School.
    I represent West Virginia, and the trend in the educational 
system over the last, I would say, 20 years has been to 
consolidate schools to where, instead of an elementary school 
where you might have 150, 200 students, you might have as many 
as 800, 900 students. While that is a little rare in a State 
like West Virginia, I know in some of the larger, more urban 
areas it is very likely to be happening. So I think that 
presents challenges for anybody seeking to walk or have a bike 
route to the school. Do you find this to be a particular 
challenge? I will just throw the question open to anybody who 
might like to answer it.
    Ms. Hubsmith. Yes, thank you. This is a big challenge, and 
through surveys that have been done by the Centers for Disease 
Control and Prevention, distance is the number one reason that 
there is an obstacle for walking or bicycling to school, and 
certainly the consolidation of schools and putting them further 
out on the edges of communities is something that is 
contributing toward the problem.
    There was an interesting analogy that was made from a 
colleague at the EPA that has talked about school siting, 
because if you look at the Safe Routes to School program, there 
are $612 million that is being spent nationally on the program 
over five years. If you look at the cost of school construction 
and siting schools, it is much, much greater than that. And he 
asked the question can the tail wag the dog, and, in effect, 
what we are doing is we are seeing that that is happening in 
some ways, that just the discussions that are being created at 
the State level, among the Department of Education and the 
Department of Transportation and the Department of Health 
around Safe Routes to School and the impacts of school siting 
and school consolidation, because we have this Federal funding 
and we are charging State DOTs with creating a program, that is 
influencing regulations that are being related to school 
siting. And because the program focuses on the five E's at the 
local level, discussions need to be had with the school 
districts and the cities, who often don't speak with each 
other. I mean, many times you will have a school district that 
decides to site its school in a certain location, and they 
don't consult with the city's master plan and their general 
plan before making that happen.
    This program, this small program is really creating those 
conversations, and hopefully one of the goals we can have 
emerge out of this as a positive consequence is that there can 
be more effort that is brought forward about the decisions of 
school siting, what that means in terms of walkability, what 
that means in terms of the neighborhood, what that means in 
terms of students' ability to be able to learn. So we are 
hoping that the tail can wag the dog and change the habits of a 
generation.
    Ms. Marchetti. I would like to just briefly add to her 
comments. Observing at the national level what is going on in 
all the States, as a lot of communities were rushing toward 
building the larger schools, some communities are rushing back, 
because they are recognizing, what we thought was a good idea 
for these reasons have other unintended consequences that we 
don't like. So some of what I am hearing is, you know, when we 
compare refurbishing this school with building this new school, 
nobody ever factors in transportation costs. That changes 
things.
    Other places are saying, you know, if we take this downtown 
school and refurbish it and include a library, a YMCA, a 
childcare center, whatever, we have created a community cluster 
that benefits everyone.
    So there is a lot of innovation out there right now; we 
have just got to get the word out. People are recognizing that 
accomplishing one good sometimes does some other things that 
you really never thought about.
    Mrs. Capito. I think that is an excellent point, and I do 
see that trend in my community of rather than trying to go to 
four schools together, maybe refining the schools that are 
existing.
    I was thinking about my own experience growing up. I mean, 
it just struck me. I used to walk to school, but I also walked 
home for lunch and walked back to school. And when I tell my 
own children that, they can't believe that you can--I remember 
my mother made pancakes sometimes for lunch; they were so good.
    In any event, I think another challenge for students, 
particularly in the elementary school area, is the latchkey kid 
phenomenon, where, if a child is coming home after school, if 
they are walking home or biking home, more on their own 
without--I mean, our buses would not drop our kindergarten 
students unless I was standing there or an adult was standing 
there. That has got to be a challenge in terms of trying to 
develop programs around all the different times that people are 
home and putting that responsibility on the child to remember, 
well, I can't really walk today because mom and dad aren't 
going to be home.
    I am sure you deal with this, trying to develop this 
program. Do you have any insight into that?
    Ms. Marchetti. The only insight I have is that, when I get 
bogged down in these thoughts sometimes and think, oh, there 
are so many issues and so many concerns, I look to the 
community level, they figure things out in ways I never would 
have thought of. They are creating groups of kids that walk 
together. They are creating community service projects where 
high school students walk with the kids and actually do some 
mentoring of them on other issues as well. We need to gather 
these examples and get them out there, because it is at the 
very local level that the most amazing ideas are coming.
    Mrs. Capito. Thank you. I yield back.
    Mr. DeFazio. Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chairman. I want to thank you and 
Chairman Oberstar for all your work on this project; it 
certainly is something that is good for the American people and 
for children. Children need protection at all levels.
    I did not have the experience Chairman Oberstar had. I went 
to school in Memphis and in Florida and in California, and I 
walked, but we didn't have snowball problems.
    [Laughter.]
    Mr. Cohen. We did have problems sometimes with the Federal 
Express jets flying over and bothering our hearing, but other 
than that it was all right.
    But walking to school was a good experience, and you need 
kids to learn.
    My State Senator is here, State Senator Beverly Marrero, 
and I would just like to ask the panel. Much of this is 
administrative, but are there legislative initiatives that any 
of you all are familiar with that she could take back to 
Tennessee in promoting safety, either pedestrian or bicycle, 
for kids and safe routes? Yes, sir.
    Mr. Bricker. Thank you, Mr. Cohen. In Oregon we have passed 
a couple of different efforts trying to basically create the 
discussion. We, in the creation of our Safe Routes action 
plans, we require that schools work with the city or the 
county. So just the actual having people who are city and 
county engineers, who understand the roadway systems, working 
with the people who understand children and the kind of ebb and 
flow of the school, is something that needs to happen, and in 
that process you get parents and the community on board. So we 
actually have legislative that our Safe Routes to School action 
plans would require that partnership to take place.
    We also, in this last legislation session, required that 
any new schools to be constructed or major renovation of the 
school would have to launch a Safe Routes action plan that has 
these stipulations in it as well. So when you are looking at 
some of these issues--and I think that potentially looking 
forward, when you consolidate a school you should be required 
to look at the transportation implications. And when I say 
transportation, I mean safety as well, and looking at actually 
walking around with the folks in some community.
    Ms. Hubsmith. Congressman, I have three ideas for you 
related to State legislation that might be possible. One is 
with the issue related to school siting. I don't know off the 
top of my head what the regulations are in Tennessee, but 
several States have minimum acreage requirements and indicate 
that if you are going to locate a high school, it needs to be 
on a tract of land that has 30 acres. We recommend that there 
be a removal of those minimum acreage standards, because that 
often drives the schools to be on the edges of communities.
    In addition, many States have regulations called the two 
thirds rule. If it costs more than two thirds to build a new 
school than it would be to retrofit an old school, they 
encourage building of the new school instead. It would be a 
good idea to take those regulations off the books to evaluate 
each school site and plan on its merits, so you can work to 
create the neighborhood schools.
    A second idea is the fact that relates to that there are 
many more applications for Safe Routes to School funding as 
there is funding available, and the Federal funding is often 
quite flexible. Through SAFETEA-LU, Congress created a 
provision for the creation of a strategic highway safety plan 
in every State, and each State is analyzing data-driven 
analyses for how injuries and fatalities take place. On a 
national level, 13.5 percent of injuries and fatalities are 
bicyclists and pedestrians. Something that your State could do 
is take a look at the percentage of bicycle and pedestrian 
injuries in your State and create a fair share for safety and 
guarantee that that percentage of your safety funds goes 
towards bicycle and pedestrian improvements, including Safe 
Routes to School.
    Finally, another provision is called Complete Streets. Many 
States and municipalities are moving forward to create this 
right now, and what this is is a requirement that every 
roadway, as it is being constructed, or any transit project 
that is being constructed would consider the needs of 
bicyclists and pedestrians simultaneously. And this is really a 
good use of taxpayer dollars, because as you are planning for 
transportation infrastructure, we want to plan for people who 
are walking, bicycling, who are disabled, who are elderly, who 
are taking transit and who are using automobiles, and by 
actually putting legislation in effect that requires this 
consideration helps to lead toward the construction of more 
comprehensive projects that serve the needs of all users and 
don't have to be retrofitted at a later date.
    Mr. Cohen. Thank you. I want to thank both of you and ask 
LA, who is here, Mr. Houston, to get with you all and get some 
notes about your legislation. You know, this is such a good 
program, a lot with obesity. We have got a problem with obesity 
with kids, and that is because they are taking a bus or 
driving, rather than walking or bicycling. That is part of it. 
You know, you get into the lobbies. You mentioned the bus 
folks. They don't want to give up their money. You know, all 
kind of things get involved, and we really need to look after 
the kids first.
    I thank you all for your testimony, and we will try to 
implement some of these things in Tennessee.
    Thank you, Mr. Chairman and Chairman Oberstar.
    Mr. DeFazio. Okay, I will thank the gentleman.
    I want to thank the panel. I think that what we have shown, 
we have laid a very solid foundation for an extraordinarily 
successful program over the final years of the SAFETEA-LU bill, 
and I think it is something upon which we will be able to build 
in future authorizations and hopefully expand. So thank you for 
your time and your testimony.
    The Committee is now adjourned.
    [Whereupon, at 11:58 a.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


</pre></body></html>
